SEMIANNUAL REPORT TO CONGRESS




 U.S. ELECTION ASSISTANCE COMMISSION
       OFFICE OF INSPECTOR GENERAL




For the Period:
April 1, 2012, through
September 30, 2012

               U.S. ELECTION ASSISTANCE COMMISSION
                   OFFICE OF INSPECTOR GENERAL
U.S. Election Assistance Commission
    Office of Inspector General
                         1201 New York Ave. NW - Suite 300
                               Washington, DC 20005




October 31, 2012


To: Acting Executive Director, U.S. Election Assistance Commission


      The Inspector General Act of 1978 (Public Law 95-452), as amended,
calls for the preparation of semiannual reports to the Congress summarizing
the activities of the Office of Inspector General (OIG) for the six-month periods
ending each March 31st and September 30th. I am pleased to enclose the
report for the period from April 1, 2012 to September 30, 2012.


      The Act requires that you transmit the report to the appropriate
committees of the Congress within 30 days of receipt, together with any
comments you may wish to make. Comments that you might offer should be
included in your management report that is required to be submitted along
with the Inspector General’s report.


      Working together, I believe we have taken positive steps to improve
Commission programs and operations.


                                            Sincerely,



                                            Curtis W. Crider
                                            Inspector General




                                       ii
U.S. Election Assistance Commission
    Office of Inspector General
Table of Contents
                                                       Page




Election Assistance Commission Profile                  1


Office of Inspector General Profile                     2

EAC Audits                                              3

Other Activities                                        5


Appendices:
  A. Reports Issued                                     9
  B. Monetary Impact of Audit Activities               10
  C. Reports with Questioned Costs                     11
  D. Reports with Potential Additional Program Funds   12
  E. Summary of Reports More Than Six Months Old       13
     Pending Corrective Action at September 30, 2012
  F. Summary of Reports More Than Six Months Old       14
     Pending Management Decision at September 30,
     2012
  G. Reporting Requirements of the Inspector           15
     General Act




                             iii
U.S. Election Assistance Commission
    Office of Inspector General
Election Assistance Commission Profile

The U.S. Election Assistance Commission (EAC or Commission) is a bipartisan,
independent commission consisting of four members. The Help America Vote
Act of 2002 specifies that commissioners are nominated by the President on
recommendations from the majority and minority leadership in the U.S. House
and U.S. Senate. Once confirmed by the full Senate, commissioners may serve
two consecutive terms and no more than two commissioners may belong to the
same political party. There are four vacancies on the commission.


The EAC mission is to assist states with improving the administration of
elections for Federal office. The EAC accomplishes this mission by providing
funding, innovation, guidance and information to be used by the states to
purchase voting equipment, train election personnel, and implement new
election programs. The EAC has awarded approximately $3.25 billion in grant
funding to the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin
Islands, Guam and American Samoa (hereinafter referred to as “states”). With
those funds, the states have purchased voting equipment, established
statewide voter registration lists, implemented provisional voting, educated
voters, trained officials and poll workers, improved polling places, and recruited
poll workers.


HAVA made EAC responsible for the federally run testing and certification
program for voting systems. Through this program, the EAC develops
standards for voting equipment, accredits laboratories, and reviews and
certifies voting equipment based upon the tests performed by the accredited
laboratories.


The EAC is responsible for administering the National Voter Registration Act
(NVRA) by promulgating regulations for the content and use of the National
Mail Voter Registration form.




                                     1
Office of Inspector General Profile

HAVA required the appointment of an inspector general for the EAC and
amended the Inspector General Act (IG Act) of 1978 (5 U.S.C.A. App. 3) to
identify the EAC as a designated Federal entity (DFE). The Commission
appointed its first permanent inspector general in August 2006.


The OIG has always been a very small office. Other agencies have provided
assistance by detailing employees; we have contracted independent CPA firms
to conduct audits, and, finally, hiring permanent staff. The OIG currently has
two employees: inspector general and an assistant inspector general for audits.


Despite our small size, we perform all of the duties required of the inspector
general under the IG Act, including:


   •   Conducting and supervising audits, investigations, and other services
       (e.g., evaluations) relating to the programs and operations of the EAC;


   •   Providing leadership and coordination and recommending actions to
       management, which (1) promote economy, efficiency, and effectiveness
       in agency programs and operations; and (2) prevent and detect fraud,
       waste, abuse, and mismanagement of government resources; and


   •   Keeping the Commission, management, and Congress fully informed
       regarding problems and deficiencies, and the progress of corrective
       actions.


When conducting an investigation, we work with other Federal agencies to
detail investigators or contract for investigative services.


The OIG’s program to ensure economy, efficiency and integrity in the use of
funds does not exclusively translate into audits of the EAC or of its grant
recipients. The OIG also investigates allegations of waste, fraud, abuse and




                                       2
mismanagement in EAC programs and operations. The OIG operates a hotline
to receive complaints regarding EAC, its programs, and its funding recipients.


EAC Audits

The OIG oversees the annual audit of EAC’s compliance with the Federal
Information Security Management Act (FISMA). Details of the audit follow:

FISMA Compliance


In accordance with the Federal Information Security Management Act (FISMA),
the Office of Inspector General (OIG) engaged Leon Snead & Co. P.C. (LSC), an
independent certified public accounting firm, to conduct an audit of the EAC’s
compliance with the OMB Circular A-130 and FISMA requirements. FISMA
requires federal agencies, including EAC, to perform annual independent
evaluations of their information security programs and practices and report the
results to the Office of Management and Budget (OMB). FISMA states that
annual evaluations shall be performed by the agency Inspector General or by an
independent external auditor, as determined by the Inspector General. The
objective of this audit was to assess whether the EAC had developed,
documented, and implemented an agency-wide information security program,
as required by OMB Circular A-130 and FISMA.


LSC concluded that EAC was in substantial compliance with FISMA
requirements, OMB policy and guidelines, and applicable NIST standards and
guidelines for the security control areas that were evaluated. LSC determined
that EAC had developed an agency-wide information technology security
program based upon assessed risk, and the security program provided
reasonable assurance that the agency’s information and information systems
were appropriately protected. However, LSC did note one area relating to
vulnerability scans of EAC’s internal network where EAC’s controls and
processes could be further strengthened. EAC officials took action to address
the identified vulnerabilities. LSC tested the actions taken by EAC officials and
confirmed corrective actions had been taken.




                                     3
Pending Audits

OIG has several ongoing audits that will be published in future reporting
periods. These audits include:


   •   State Grant Audits: The OIG conducts audits of the recipients of HAVA
       funds. Through those audits, the OIG examines whether the recipient
       used HAVA funds in accordance with HAVA and other applicable Federal
       requirements. We also determine whether the recipient has properly
       accounted for purchases made with HAVA funds and any income derived
       from those purchases. Last, we assess whether grant funding was
       maintained and accounted for in keeping with HAVA, particularly whether
       the recipient provided sufficient matching funds and maintained Federal
       monies in a separate election fund. During the reporting period, the OIG
       contracted with the professional auditing firm, of McBride, Lock &
       Associates to conduct audits of Colorado, Massachusetts, Nebraska and
       North Dakota.


   •   Data Collection Grant Audits: The EAC OIG has contracted with the
       professional auditing firm of McBride, Lock & Associates to conduct four
       audits of recipients of EAC data collection grants (Illinois, Minnesota,
       Ohio and Pennsylvania). The objective of the audit is to determine
       whether the grant recipient used the funds in accordance with applicable
       federal requirements.


   •   Procurement Audit: The OIG has initiated a review of the procurement
       activities of the EAC. The objectives are to perform a performance audit
       of the EAC’s Office of Procurement Services and Commission-wide
       contract management functions to determine whether the EAC has
       procured supplies and services in an effective and efficient manner and in
       accordance with applicable laws, policies and regulations. The OIG has
       contracted with the firm of CliftonLarsonAllen LLP to perform the audit.




                                      4
   •   Privacy Act Audit. The objective of the audit is to evaluate and report on
       whether the EAC has established adequate privacy and data protection
       policies and procedures governing the collection, use, disclosure,
       transfer, storage and security of information relating to agency
       employees and the public. OIG has contracted with CliftonLarsonAllen
       LLP to perform the audit.



Non-Federal Audits

OMB Circular A-133 establishes audit requirements for State and local
governments, receiving Federal awards. Covered entities that expend $500,000
or more a year in Federal awards are required to obtain an annual organization-
wide audit “single audit”. The audits are conducted by non-Federal auditors,
such as public accounting firms and State auditors. OIG reviews the resulting
audit reports, findings and questioned costs related to EAC awards.


During this reporting period, the OIG referred the following single audit to the
EAC:


   •   West Virginia Comprehensive Annual Financial report Fiscal Year Ended
       June 30, 2011


Other Activities


Reviews of Legislation, Rules, Regulations and Other Issuances


The OIG conducts regular monitoring of EAC program activities and policy-
making efforts. We provide comment to significant policy statements,
rulemaking and legislation that affects the EAC. During this reporting period,
the EAC did not have any Commissioners and did not issue any policy
determinations. The Administration issued several pieces of guidance and
Executive Orders during the reporting period, which we reviewed. Last, we




                                      5
participated in surveys and data calls issued by the Council of Inspectors
General on Integrity and Efficiency.


Matters Referred to Prosecuting Authorities


We are reporting no activities in this category during the reporting period.


Denial of Access to Records


We are reporting no activities in this category during the reporting period.


Peer Review Activity

Section 989C of the Dodd-Frank Act contains additional semiannual reporting
requirements pertaining to peer review reports. Federal Inspectors General are
required to engage in peer review processes related to both their audit and
investigative operations. In keeping with Section 989C, the EAC OIG is reporting
the following information related to its audit peer review activities. These
activities cover our role as both the reviewed and the reviewing OIG.


Audit Peer Reviews


On a 3-year cycle, peer reviews are conducted of an OIG audit organization’s
system of quality control in accordance with the CIGIE Guide for Conducting
External Peer Reviews of the Audit Organizations of Federal Offices of Inspector
General, based on requirements in the Government Auditing Standards.

There are three types of peer review ratings that may be rendered: pass, pass
with deficiencies, and fail. A rating of pass is issued when it is determined that
the system of quality control for the audit organization has been suitably
designed and complied with to provide the OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards.
Further, there were no deficiencies or significant deficiencies identified that




                                       6
affect the nature of the report. (Guide for Conducting External Peer Reviews of
the Audit Organizations of Federal Offices of Inspector General, March 2009)

EAC OIG AUDIT: During this reporting period, the EAC OIG was subject to a
peer review. The Federal Labor Relations Authority, Office of Inspector General
(FLRA OIG) conducted the review and issued its system report on July 31, 2012.
In the FLRA OIG’s opinion, the system of quality control for the EAC OIG audit
organization in effect for the year-ended March 31, 2012, had been suitably
designed and complied with to provide EAC OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards
in all material respects. The EAC OIG received a peer review rating of pass.


Included with the final report was a Letter of Comment, which detailed three
findings and recommendations that were not considered to be of sufficient
significance to affect the peer review rating.


      •   Completing and Documenting Training
      •   Contractor Monitoring – Monitoring Oversight Tool Not Used
      •   Contractor Monitoring –Evidence of Auditor Training Not Obtained


The EAC OIG agreed with the FLRA OIG’s findings and will implement corrective
actions. Corrective actions will be completed by February 2013.

EAC OIG Peer Review of Federal Trade Commission: During the past reporting
period, the EAC OIG completed a peer review of the audit operations of the
Federal Trade Commission, Office of Inspector General (FTC OIG). We reported
that in our opinion the system of quality control for the audit organization of
FTC OIG in effect for the year-ended March 31, 2012, had been suitably
designed and complied with to provide FTC OIG with reasonable assurance of
performing and reporting in conformity with applicable professional standards
in all material respects. The FTC OIG has received a peer review rating of pass.
The report was issued on September 7, 2012.


We also issued a letter dated September 7, 2012 that sets forth findings that
were not considered to be of sufficient significance to affect our opinion


                                      7
expressed in the system report. The FTC OIG indicated that they agreed with
the findings and recommendations and would initiate corrective actions.




                                   8
                                                       Appendix A
Reports Issued



EAC Audits       1. Audit of Compliance with the Requirements
                 of the Federal Information Security
                 Management Act (Assignment No. I-PA-EAC-
                 02-12), September 2012




                           9
                                                       APPENDIX B
   Monetary Impact of Audit Activities

   Questioned Costs*                                         $0
   Potential Additional Program Funds                        $0
   Funds to Be Put to Better Use                             $0
   Total                                                     $0
*Unsupported costs are included in questioned costs.




                                         10
                                                        APPENDIX C
Reports With Questioned Costs

                                          Questioned   Unsupported
          Category               Number     Costs         Costs

A. For which no management
decision had been made by
the beginning of the reporting
period.                            1        $ 6,564        $0

B. Which were issued during
the reporting period.              0           $0          $0

Subtotals (A + B)                  1        $ 6,564        $0

C. For which a management
decision was made during the
reporting period.                  0          $0           $0

 (i) Dollar value of
recommendations that were
agreed to by management.                      $0           $0

 (ii) Dollar value of
recommendations not agreed
to by management.                             $0           $0

D. For which no management
decision has been made by
the end of the reporting
period.                            1        $ 6,564        $0




                                    11
                                                   APPENDIX D
Reports With Potential Additional Program Funds

            Category                   Number   Dollar Value

A. For which no management
decision had been made by the
beginning of the reporting
period.                                  0          $0
B. Which were issued during the
reporting period.                        0          $0

Subtotals (A+B)                          0          $0

C. For which a management
decision was made during the
reporting period.                        0          $0

 (i) Dollar value of
recommendations that were
agreed to by management.                            $0

 (ii) Dollar value of
recommendations that were not
agreed to by management.                            $0

D. For which no management
decision has been made by the
end of the reporting period.             0          $0
                                                                $   0




                                  12
                                                                       APPENDIX E
Summary of Reports More Than Six Months Old Pending
Corrective Action at September 30, 2012

The following is a list of audit and evaluation reports that are more than six
months with management decisions for which corrective action has not been
completed. It provides report number, title, issue date, and the number of
recommendations without final corrective action.

I-EV-EAC-01-07B             Assessment of the U.S. Election Assistance
                            Commission’s Program and Financial Operations,
                            February 2008, 7 Recommendations


E-HP-HI-01-10               Administration of Payments Received Under the Help
                            America Vote Act by the Hawaii Office of Elections,
                            February 2011, 4 Recommendations


I-PA-EAC-01-11              Independent Auditor's Reports on the U.S. Election
                            Assistance Commission's Financial Statements for Fiscal
                            Year 2011, November 2011, 3 Recommendations




                                         13
                                                                   APPENDIX F
Summary of Reports More Than Six Months Old Pending
Management Decision at September 30, 2012

This listing includes a summary of audit and evaluation reports that were more
than 6 months old on September 30, 2012 and still pending a management
decision. It provides report number, title, and number of unresolved
recommendations.


None.




                                       14
                                                                                  APPENDIX G
Reporting Requirements of the IG Act

 Section of Act                               Requirement                               Page

Section 4(a)(2)       Review of Legislation and Regulations                               5

Section 5(a)(1)       Significant Problems, Abuses, and Deficiencies                    None

Section 5(a)(2)       Recommendations for Corrective Action With Respect to             None
                      Significant Problems, Abuses, and Deficiencies

Section 5(a)(3)       Significant Recommendations From Agency’s Previous Report on       13
                      Which Corrective Action Has Not Been Completed

Section 5(a)(4)       Matters Referred to Prosecuting Authorities and Resulting         None
                      Convictions

Section 5(a)(5)       Matters Reported to the Head of the Agency                        None

Section 5(a)(6)       List of Reports Issued During the Reporting Period                  9

Section 5(a)(7)       Summary of Significant Reports                                      3

Section 5(a)(8)       Statistical Table – Questioned Costs                               10

Section 5(a)(9)       Statistical Table – Recommendations That Funds Be Put to Better   None
                      Use

Section 5(a)(10)      Summary of Audit Reports Issued Before the Commencement of        None
                      the Reporting Period for Which No Management Decision Has
                      Been Made

Section 5(a)(11)      Significant Revised Management Decisions Made During the          None
                      Reporting Period

Section 5(a)(12)      Significant Management Decisions With Which the Inspector         None
                      General Is in Disagreement

Section 5(a)(13)      Information Described Under Section 804(b) of the Federal         None
                      Financial Management Improvement Act of 1996

Section 5(a)(14)(A)   Peer Review Reports Conducted on U.S. Election Assistance           6
                      Commission Office of Inspector General during the Reporting
                      Period


                                                15
 Section of Act                                Requirement                            Page
Section 5(a)(14)(B)   Statement of Peer Review Conducted on the U.S. Election         None
                      Assistance Commission Office of Inspector General during a
                      Prior Reporting Period

Section 5(a)(15)      Outstanding Recommendations from a Peer Review Report on          6
                      the U.S. Election Assistance Commission Office of Inspector
                      General

Section 5(a)(16)      Peer Review Reports Conducted by the U.S. Election Assistance     6
                      Commission Office of Inspector General




                                                16
                           Help to ensure efficient, effective, and transparent EAC operations and
OIG’s Mission
                           programs




                           Copies of OIG reports are available on the OIG website,
                           www.eac.gov/inspector_general/

                           Copies of OIG reports can be requested by e-mail: (eacoig@eac.gov).

                           Mail orders should be sent to:
Obtaining Copies
                                U.S. Election Assistance Commission
of OIG Reports
                                Office of Inspector General
                                1201 New York Ave. NW - Suite 300
                                Washington, DC 20005

                           To order by phone: Voice:    (202) 566-3100
                                                 Fax:   (202) 566-0957



                           By Mail:   U.S. Election Assistance Commission
                                      Office of Inspector General
To Report Fraud, Waste
                                      1201 New York Ave. NW - Suite 300
and Abuse Involving the               Washington, DC 20005
U.S. Election Assistance
Commission or Help         E-mail:    eacoig@eac.gov

America Vote Act Funds
                           OIG Hotline: 866-552-0004 (toll free)

                           On-Line Complaint Form: www.eac.gov/inspector_general/
                           FAX: 202-566-0957
               Inspector General
              U.S. Election Assistance Commission




This report, as well as other OIG reports and testimony, are available on the internet at:
www.eac.gov/inspector_general/
